CERTIFICATE OF SERVICE
NO. 20-219
Jane Cummings
Petitioner(s)
v.
Premier Rehab Keller, P.L.L.C.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the PREMIER
REHAB KELLER, P.L.L.C. BRIEF IN OPPOSITION, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Andrew Rozynski
Eisenberg & Baum, LLP
24 Union Square East, 4th Floor
New York, NY 10003
(212) 353-8700
arozynski@eandblaw.com
Counsel for Jane Cummings

Lucas DeDeus

September 24, 2020
SCP Tracking: Scott Bradley-306 W. 7th Street, Suite 200-Cover Orange

